CERTIFICATE OF SERVICE
No. 20-1029
CITY OF AUSTIN, TEXAS,
Petitioner,
v.
REAGAN NATIONAL ADVERTISING OF AUSTIN, LLC, ET AL.,
Respondents.
I, Gordon D. Todd, do hereby certify that, on this twenty-ninth day of
September, 2021, I caused three copies and an electronic copy of the Brief of Out of
Home Advertising Association of America, Inc., Media Resources, Inc., Renfroe
Outdoor Advertising, DDI Media, Dakota Outdoor Advertising, and Hughes
Outdoor Media as Amici Curiae in Support of Respondents in the foregoing case to
be served by first-class mail, postage prepaid, and by email, on the following:
RENEA HICKS
Law Office of Max Renea Hicks
P.O. Box 303187
Austin, TX 78703
(512) 480-8231
rhicks@renea-hicks.com
Counsel for Petitioner City of Austin

KANNON K. SHANMUGAM
Paul, Weiss, Rifkind, Wharton &
Garrison LLP
2001 K Street, N.W.
Washington, D.C. 20006
(202) 223-7300
kshanmugam@paulweiss.com
Counsel for Respondents Reagan National
Advertising of Austin, LLC, et al.
J. ALLEN SMITH
SettlePou
3333 Lee Parkway, Eighth Floor
Dallas, TX 75219
(214) 520-3300
asmith@settlepou.com
Counsel for Respondents Lamar
Advantage Outdoor Company, L.P.,
doing business as The Lamar Companies
/s/ Gordon D. Todd
GORDON D. TODD
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

